Report No. D-2011-092                        July 25, 2011




      Guam Medical Plans Do Not Ensure Active Duty
          Family Members Will Have Adequate
                 Access To Dental Care
Additional Information and Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (703) 604-8932.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for Auditing by
phone (703) 604-9142 (DSN 664-9142), by fax (703) 604-8932, or by mail:

                      ODIG-AUD (ATTN: Audit Suggestions)
                      Department of Defense Inspector General
                      400 Army Navy Drive (Room 801)
                      Arlington, VA 22202-4704




Acronyms and Abbreviations
AD                                           Active Duty
ADFM                                         Active Duty Family Member
BUMED                                        Navy Bureau of Medicine and Surgery
CFR                                          Code of Federal Regulations
CONUS                                        Continental United States
CNMI                                         Commonwealth of the Northern Mariana Islands
DTF                                          Dental Treatment Facility
FTE                                          Full-Time Equivalent
HPSA                                         Health Professional Shortage Area
JGPO                                         Joint Guam Program Office
OCONUS                                       Outside Continental United States
TDP                                          TRICARE Dental Program
TMA                                          TRICARE Management Activity
                                      INSPECTOR GENERAL 

                                     DEPARTMENT OF DEFENSE 

                                       400 ARMY NAVY DRIVE 

                                  ARLINGTON, VIRGINIA 22202-4704 





                                                                                   JUL 25 2011


MEMORANDUM FOR ASSISTANT SECRETARY OF DEFENSE (HEALTl-I AFFAIRS)
               NAVAL INSPECTOR GENERAL

SUBJECT: 	 Guam Medical Plans Do Not Ensure Active Duty Family Members Will Have
           Adequate Access To Dental Care (Report No. D-20 11-092)

We are providing this report for your information and use. We determined that DoD plans for
providing dental care to active duty family members in Guam need improvement. This is the
first in a series of repOlis regarding the adequacy of medical plans related to the realignment of
military members and their families to Guam. We considered management comments on a draft
of this report when preparing the final report.

Comments on the draft of this report conformed to the requirements of DoD Directive 7650.3
and left no unresolved issues. Therefore, we do not require any additional comments.

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866.



                                             t£~~
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. D-2011-092 (Project No. D2010-D000LF-0113.000)	                                        July 25, 2011


               Results in Brief: Guam Medical Plans Do Not
               Ensure Active Duty Family Members Will
               Have Adequate Access To Dental Care
                                                           If ADFMs do not have adequate access to dental
What We Did                                                care, it could negatively impact quality of life and
We evaluated DoD’s plans for providing dental              morale for active duty members and their
care to active duty family members (ADFMs) in              families.
Guam in view of the anticipated growth in
population resulting from the planned base                 What We Recommend
closure in Okinawa and subsequent realignment to           We recommend that the:
Guam. We recognize that population projections                •	 Deputy Director, TRICARE Management
may change, which could have an impact on                         Activity, assess the capability of the
medical planning.                                                 TRICARE Dental Program to meet access
                                                                  requirements given the projected increases
What We Found                                                     in ADFM, contractor, DoD civilian, and
DoD plans for providing dental care to ADFMs in                   indirect/induced populations.
Guam need improvement. Specifically, the plans                •	 Chief, Navy Bureau of Medicine and
required family members to rely on local dental                   Surgery, in coordination with TRICARE
providers, despite the likely shortage of dentists                Management Activity, develop viable
because of the expected population increases.                     plans that fully consider the impact
The realignment will increase the ADFM and                        contractor, DoD civilian, and
civilian populations by about 39,100 during peak                  indirect/induced population increases in
construction, thus increasing Guam’s total                        Guam will have on the availability of
population by 22 percent. With only 43 civilian                   dental care for ADFMs.
dental providers, population increases could push
the population-to-dentist ratio to 5,000-to-1,             Management Comments and
potentially resulting in Guam’s designation as a           Our Response
Health Professional Shortage Area for dental care.
                                                           The Deputy Director, TRICARE Management
The plans were inadequate because Navy officials
                                                           Activity, disagreed with our finding and believes
concluded that the current TRICARE Dental
                                                           DoD has made more progress in planning than is
Program network in Guam would be sufficient to
                                                           reflected in this report, and that a growing civilian
provide dental care to ADFMs; however, in
                                                           dental infrastructure will meet the needs of the
arriving at this conclusion, Navy officials did not:
                                                           future ADFM population. We believe that this
    •	 fully examine the impact the increase in            report fairly presents the extent of DoD planning
       total population would have on the                  for ADFM dental care at the time of the audit.
       availability of dental care in Guam; and            However, the actions stated in TRICARE
    •	 coordinate with the TRICARE                         Management Activity’s comments were
       Management Activity to ensure that the              responsive; TRICARE staff’s February 2011
       TRICARE Dental Program could continue               review of Guam dental resources, combined with
       to provide adequate access to dental care           TRICARE’s commitment to future coordination
       for active duty family members.                     with the Navy Bureau of Medicine and Surgery
                                                           and the Joint Guam Program Office, satisfy the
                                                           intent of the recommendations.
                                                       i
Report No. D-2011-092 (Project No. D2010-D000LF-0113.000)                     July 25, 2011

Recommendations Table

         Management                   Recommendations                No Additional
                                     Requiring Comment             Comments Required
 Deputy Director, TRICARE                                   1, 2
 Management Activity
 Chief, Navy Bureau of                                      2
 Medicine and Surgery




                                             ii
Table of Contents

Introduction	                                                           1


      Objective                                                         1

      Military Buildup in Guam                                          1

      Dental Care for Active Duty Family Members                        2

      Review of Internal Controls                                       3


Finding.	 Active Duty Family Members in Guam Required to Use TRICARE

          Dental Program Despite Likely Shortage of Dentists            4


      DoD Plans for ADFM Dental Care in Guam Were Inadequate            4

      Navy Did Not Fully Examine Increased Population Impact or

        Coordinate with TMA on TDP Capability                           6

      Options For Overcoming Dentist Shortages                          7

      Management Comments on the Finding and Our Response               8

      Recommendations, Management Comments, and Our Response            9


Appendices

      A. Scope and Methodology	                                         11 

            Use of Computer-Processed Data                              12 

            Prior Coverage                                              12 

      B. Memorandum to Clarify Audit Objectives	                        13 


Management Comments

      TRICARE Management Activity                                       14 

      Navy Bureau of Medicine and Surgery                               17 

    Introduction
    Objective
    Our audit objective was to evaluate DoD plans for providing dental care to active duty
    family members (ADFMs) in Guam in view of the anticipated growth in population
    resulting from the planned base closure in Okinawa and subsequent realignment to
    Guam. Our original audit objective, however, was to determine whether planned health
    care resources were sufficient to meet requirements as a result of the planned base closure
    in Okinawa and subsequent realignment to Guam. Based on issues we identified early in
    the audit, we revised our objective and issued a clarification memorandum stating the
    revised objective for the first audit: to evaluate plans for providing dental care to
    ADFMs. Subsequent audits will focus on other issues related to medical planning. See
    Appendix B for the clarification memorandum. See Appendix A for a discussion of the
    scope and methodology related to the objective.

    Military Buildup in Guam
    In 2005 and 2006, the Governments of Japan and the United States held a series of
    discussions that resulted in an agreement to relocate elements of the III Marine
    Expeditionary Force from Okinawa, Japan, to Guam. Figure 1 shows that the total active
    duty (including Coast Guard) and ADFM populations in Guam are projected to increase
    by approximately 23,000 by 2020.

         Figure 1. Guam Active Duty and Active Duty Family Member Populations1
                             Active Duty            Active Duty Family Member                          Total
                                                                                          Total
                  Baseline                          Baseline                                          Future
                               Increase    Future             Increase Future           Increase
                  (FY05)                            (FY05)                                           Population
    Army                30          630       660         50       950   1,000              1,580         1,660
    Navy             4,350            0     4,350      5,230         0   5,230                  0         9,580
    Air Force 2      1,930        1,070     3,000      2,280       970   3,250              2,040         6,250
    Marine
                         3       10,552    10,555            2       9,000     9,002       19,552         19,557
    Corps
    Coast
                      140           100      240            180          0       180          100            420
    Guard 2
                     6,453       12,352    18,805       7,742      10,920     18,662       23,272         37,467
1
  Baseline population from Guam Integrated Military Development Plan, July 11, 2006; Army, Navy, & Marine Corps
  population increases from Final Environmental Impact Statement, Guam and Commonwealth of the Northern Mariana
  Islands (CNMI) Military Relocation, July 2010. Projected population increases will occur by 2020.
2
  Air Force and Coast Guard increases from the 36th Air Wing, March 2010.

    In addition to these projected increases, the Guam realignment will add approximately
    37,500 civilians (DoD and non-DoD personnel) during the peak construction period
    in 2014. This increase is expected to level off at about 12,500 by 2020, when
    construction is scheduled to conclude, and temporary workers will likely leave the island.
    Population projections are notional and may change over time. We recognize that
    changes to the population projections could impact medical planning.

                                                       1

The Office of the Secretary of Defense established the Joint Guam Program Office
(JGPO) to lead the coordinated planning efforts among DoD Components and other
stakeholders to consolidate, optimize, and integrate the existing DoD infrastructure
capabilities on Guam. JGPO leadership coordinates with Navy Bureau of Medicine and
Surgery (BUMED) officials to ensure Guam plans are developed and strategically
aligned with the latest developments and resource timelines for the Guam realignment.
Specifically, BUMED is responsible for determining health care requirements for Guam.

Dental Care for Active Duty Family Members
ADFMs are entitled to receive dental care in military dental treatment facilities (DTFs)
on a space-available basis. However, ADFMs in the Continental United States (CONUS)
who are enrolled in the TRICARE Dental Program (TDP) are ineligible for routine care
on a space-available basis in the DTFs. Conversely, Outside the Continental United
States (OCONUS), ADFMs are eligible for routine care on a space-available basis in the
DTFs, even when enrolled in the TDP. 1

TRICARE Dental Program
The TDP is a voluntary dental insurance program offering a network of local dentists
who provide a wide range of diagnostic, preventive, and restorative services. TDP
enrollment is open to family members of active duty, National Guard, and Reserve
service members, as well as certain National Guard and Reserve service members.
Enrollees pay a monthly premium and incur a cost share for some services. A contractor
manages the TDP and is responsible for developing provider networks, establishing
reimbursement rates, and managing access to dental care. TRICARE Management
Activity (TMA) supervises and administers all TRICARE programs, including the TDP,
and monitors the TDP contractor’s performance to ensure adequate access to dental care
is available in accordance with contract requirements.

Guam Active Duty Family Members Use Civilian Dentists
Because the Code of Federal Regulations (CFR) designates 2 Guam as a CONUS TDP
service area, ADFMs in Guam who are enrolled in the TDP cannot receive routine dental
care in the DTFs. In Guam, 90 percent of ADFMs were enrolled in the TDP as of
June 2010. Navy and Air Force dentists in Guam DTFs treated ADFMs 103 times in
FY 2009—less than 1 percent of their combined workload. Currently, Guam DTFs are
staffed only to treat the active duty (AD) population, and, according to Navy and Air
Force officials, this staffing policy is not expected to change.

ADFMs, even when enrolled in the TDP, may receive routine dental care at DTFs in
locations designated as OCONUS TDP service areas, such as Okinawa. According to



1
  Per section 1077, title 10, United States Code and 32 CFR sec. 199.13 (2009), ADFMs enrolled in the

TDP cannot receive dental care in DTFs except when outside the United States, in emergencies, or for

benefits not covered by the TDP.

2
  32 CFR sec. 199.13 (2009).


                                                    2

Navy and Marine Corps officials, Okinawa DTFs that provide dental care to ADFMs are
staffed to accommodate the ADFM workload.
In fact, ADFMs accounted for about            ...ADFMs accounted for about
31 percent of the FY 2009 workload at Navy    31 percent of the FY 2009 workload
DTFs in Okinawa, compared with less than      at Navy DTFs in Okinawa,
1 percent of the workload in Guam DTFs.       compared with less than 1 percent
                                              of the workload in Guam DTFs.
Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides reasonable assurance programs are operating as intended
and to evaluate the effectiveness of the controls. We identified a weakness in the Navy’s
implementation of internal controls for planning for ADFM dental care in Guam. The
Navy prepared a Healthcare Requirements Analysis and a Medical Facilities Master
Planning Study to determine Guam’s future medical and dental requirements but, in
doing so, did not fully examine the impact of the total increases in population on the
availability of dental care in Guam. We will provide a copy of the report to the senior
officials responsible for internal controls in the Navy and TMA.




                                            3

Finding. Active Duty Family Members in
Guam Required to Use TRICARE Dental
Program Despite Likely Shortage of Dentists
DoD plans for providing dental care to ADFMs in Guam need improvement.
Specifically, the plans required ADFMs to rely on local dental providers, despite the
likely shortage of dentists because of population increases resulting from the planned
base closure in Okinawa and subsequent realignment to Guam. The realignment will
increase the ADFM and civilian populations by about 39,100, thus increasing Guam’s
total population by 22 percent during peak construction. With only 43 civilian dental
providers, population increases could push the population-to-dentist ratio to 5,000-to-1,
potentially resulting in Guam’s designation as a Health Professional Shortage Area for
dental care. The plans were inadequate because Navy officials concluded that the current
TDP network in Guam would be sufficient to provide dental care to ADFMs. However,
in reaching this conclusion, Navy officials did not:
     •	 fully examine the impact the increase in total population would have on the
        availability of dental care in Guam; and
     •	 coordinate with the TMA to ensure that the TDP could continue to provide
        adequate access to dental care for active duty family members.
DoD and local civilians, contractors and their dependents, indirect and induced
populations, 3 and active duty family members will be competing for dental care from the
same limited pool of dental providers given the likely shortage of providers. If ADFMs
do not have adequate access to dental care, it could negatively impact quality of life and
morale for active duty members and their families.

DoD Plans for ADFM Dental Care in Guam Were
Inadequate
DoD plans required ADFMs to continue to use the local dental care provider network,
even though it could well be overtaxed and unable to meet the needs of the increased
population. Guam’s population (excluding active duty) is expected to increase by about
39,100 (22 percent) during peak construction, thus resulting in an increased demand for
dental services from Guam’s civilian providers. This increased demand could make it
difficult for the TDP contractor to meet the 21-day general dentistry access requirement 4
for ADFM dental care. We recognize that population projections and construction
timelines are subject to change. Figure 2 shows the projected cumulative ADFM and



3
  Indirect and induced populations include workers coming from off-island for jobs not directly related to
DoD actions.
4
  The TDP contract states that 99 percent of enrollees must be able to get an appointment for routine
general dentistry care within 21 days of requesting an appointment, at a location within 35 driving miles of
their primary residences.

                                                     4

civilian population increases in Guam from 2011 through 2020 as of July 2010, with the
peak increase of about 39,100 occurring in 2014.

             Figure 2. Projected Cumulative ADFM and Civilian Population Increases
                                          2011 – 2020*

    45,000
                                                                                      Cumulative Increase
    40,000                                                                            LESS Active Duty
    35,000
                                                                                      Active Duty Family
    30,000
                                                                                      Members
    25,000

    20,000                                                                            Indirect and Induced
                                                                                      Populations
    15,000

    10,000
                                                                                      Construction Workers
     5,000                                                                            from Off Island

        0
               2011   2012   2013   2014   2015   2016   2017   2018    2019   2020   Military Civilian
                                                                                      Employees

Source: Final Environmental Impact Statement, Guam and CNMI Military Relocation, July 2010
*
    Civilian workforce increases include accompanying family members.

As of May 2010, 43 private practice civilian dentists 5 on Guam served a population of
more than 175,000—an estimated population-to-dentist ratio of 4,090-to-1. Comparing
this ratio with that of the U.S. ratio of 1,691-to-1 shows that, even without the expected
population increases, Guam already has significantly lower dental coverage than that of
the rest of the United States. The Final Environmental Impact Statement 6 suggested that
Guam’s isolated location and typically lower pay scale contributes to an overall shortage
of medical and dental providers. Guam’s location also makes it impractical for people to
leave the island to seek dental care elsewhere.

Temporary Contract Workers Will Need Dental Care In Guam
Marine Corps officials stated that increases in contractor population will not impact the
availability of dental care because construction contracts will require that workers who
relocate to the island receive medical and dental care in contractor-provided clinics.
However, we reviewed Requests for Proposal for two Guam construction contracts,
including a $4 billion multiple-award contract, and found no requirement for
contractor-provided dental care. Although the Requests for Proposal included a
requirement for comprehensive plans to address medical services, they made no specific
mention of dental care requirements other than a pre-deployment dental screening. Even
if contractors provide dental care, contract workers and their families will be competing



5
 Guam private practice dentists include 30 general dentists and 13 specialty providers as of May 2010.
6
 As required by the National Environmental Policy Act of 1969, the Navy prepared an Environmental
Impact Statement which discussed socioeconomic issues, including availability of medical and dental care.

                                                         5

for care from the same pool of providers unless additional providers are brought in from
off island.

Network Capacity Model Concluded Dental Network Will Be
Stressed
During the audit, the TDP contractor prepared a network capacity model assessing
whether the TDP network in Guam could handle the increased number of ADFMs
resulting from the Guam realignment. Although the model did not consider the increased
civilian populations that will be competing for the same dental services, the TDP
contractor concluded that the network dentists would be “stressed” if the projected
ADFM population comes to fruition.

Guam is at Risk of Becoming a Health Professional Shortage
Area for Dental Care
Without an increase in private-practice dental providers, Guam could become a Health
Professional Shortage Area (HPSA) for dental care. A HPSA is a “geographic area,
population group, or health care facility that has been designated by the Federal
Government as having a shortage of health professionals.” One of the criteria for
                                             designation as a dental HPSA is a population
  DoD and local civilians, contractors       to full-time equivalent 7 dentist ratio of
  and their dependents, indirect and         5,000-to-1; in areas with a poverty level
  induced populations, and ADFMs             greater than 20 percent, the ratio is reduced to
  will be competing for dental care          4,000-to-1. According to the Final
  from a limited number of available         Environmental Impact Statement, Guam’s
  providers.                                 poverty rate is 22 percent, making it eligible
                                             for HPSA designation with a ratio of
                                             4,000-to-1. We estimate that Guam’s current
population-to-dentist ratio is 4,090-to-1; expected civilian population increases could
push the ratio as high as 5,000-to-1 by 2014, settling to 4,612-to-1 by 2020. 8 DoD and
local civilians, contractors and their dependents, indirect and induced populations, and
ADFMs will be competing for dental care from a limited number of available providers.

Navy Did Not Fully Examine Increased Population
Impact or Coordinate with TMA on TDP Capability
The Navy did not fully examine the impact of the increase in total population on dental
care in Guam or coordinate with TMA to ensure that the TDP could continue to provide
adequate access to dental care for ADFMs. The Navy prepared a series of planning
documents to determine how DoD would satisfy the increased medical and dental
requirements resulting from the Guam realignment. However, none of the documents
provided evidence that the Navy fully examined whether there would be enough dentists



7
  “Full-Time Equivalents” as defined by HPSA regulations were not calculated by the audit team. See 

Scope and Methodology for discussion.

8
  Assuming the number of practicing civilian dentists remains at 43.


                                                   6

in Guam to handle the expected increase in population. Following are the different plans
and what each stated regarding dental care for ADFMs:
   •	 The Healthcare Requirements Analysis, February 2007, stated that it projected
      only AD workload because the TDP provides dental care for ADFMs. The
      analysis also stated that the Navy’s dental clinic in Guam is the only one in the
      Far East that does not provide dental care to ADFMs.
   •	 The Medical Facilities Master Planning Study Update, April 2007, was, in part,
      based on results from the Healthcare Requirements Analysis; as such, the study
      addressed dental care for AD personnel only. The study stated that the ADFM
      population currently receives dental care in the civilian market, and “there have
      been no indications from the Government that accessing dental care for ADFMs
      will be changing with the population increases that are projected.”
   •	 July 2009 and July 2010 working drafts for the Draft Guam Joint Military Master
      Plan included a summary of the findings from the Medical Facilities Master
      Planning Study Update and, therefore, discussed ADFM needs for medical care
      and facilities, but not for dental care.
In addition, before the development of the Medical Facilities Master Planning Study, the
Navy did not coordinate with TMA to ensure that the TDP could continue to provide
                                        adequate access to dental care for ADFMs. Thus,
   … the Navy needs to develop          we believe the Navy needs to develop adequate
   adequate plans to address the        plans to address the likelihood of dentist shortages
   likelihood of dentist shortages      in Guam. TMA should determine the impact of
   in Guam.	                            projected population increases on the TDP and the
                                        ensuing availability of dental care in Guam and
communicate the results to the Navy. If TMA determines that the TDP network will be
inadequate to meet the 21-day TDP access requirement, the Navy, in coordination with
TMA, should revise plans to ensure ADFMs will have timely access to dental care in
Guam. If ADFMs do not have adequate access to dental care, it could negatively impact
quality of life and morale for active duty members and their families.

Options For Overcoming Dentist Shortages
There are a number of ways DoD can mitigate the impact of likely dentist shortages on
ADFMs’ access to dental care. For example, TMA could initiate action to change the
CFR and designate Guam as an OCONUS TDP service area. This action would allow
enrollees to use either the TDP or the DTF on a space-available basis, and it would
reduce some of the increased demand for dental care on the local economy. Guam is the
only geographic location in the Far East that is part of the CONUS TDP service area, yet
it is considered an OCONUS, or overseas tour area, for other purposes. For example,
   •	 Guam is included in the TRICARE overseas program.
   •	 Navy AD personnel and their family members receive overseas medical

      screenings prior to assignment. 





                                             7

   •   Military personnel are entitled to overseas housing and cost-of-living allowances.
   •   Official travelers are entitled to OCONUS per diem.
   •   Military alcohol sales are regulated under rules for overseas locations.

Navy officials were concerned that including Guam in the TDP OCONUS service area
will cause ADFMs to seek dental care exclusively in DTFs, resulting in a loss of income
to local dental providers and increased staffing requirements for DTFs. However, careful
planning and coordination can maximize use of the TDP network and, at the same time,
ensure DTF dental care is available when necessary to maintain access requirements.
According to TMA officials, the process for obtaining a dental license in Guam is
controlled differently than in CONUS. We recognize that such differences may impact
planning for dental care for ADFMs in Guam.

Navy and TMA officials discussed other potential options, such as contractor-provided
dental care on an as-needed basis, or a private practice dental clinic in the Navy
Exchange. However, Navy and Marine Corps officials stated that additional dentists
from the U.S. mainland would respond to the increase in population and set up practices
in Guam. Officials presented no support for this statement. Regardless of the option
selected, TMA and the Navy must fully consider all anticipated increases in population
and their effect on the availability of dental care.

Management Comments on the Finding and Our
Response
The Deputy Director, TMA, disagreed with the finding and stated that more progress has
been made in DoD planning than is shown in the draft audit report. The Deputy Director
stated that both TMA and the TDP contractor reviewed network adequacy throughout the
planning stages of the Guam realignment and concluded that the network would be
stressed but able to handle the influx of family members. In response to the discussion
draft audit report, the Deputy Director and staff visited Guam in February 2011 to assess
dental planning and civilian dental infrastructure. They met with the Chairman of the
Guam Board of Examiners for Dentistry and found that there were 52 practicing dentists
in Guam, an increase of 9 providers from their previous assumption of 43. According to
the Deputy Director, “the addition of these nine providers is important in the ability to
meet the dental needs of the family members assigned to Guam.” Further, TMA learned
that Guam is continuing to see growth in the number of dentists applying for licensure
and that Guam has the ability, if necessary, to grant licensure based on credentials. The
Deputy Director also stated that, based on TMA’s research, projected guest worker
populations should not be included in staffing ratios because these populations do not
exhibit the same trends for seeking dental care as American family members do.
Moreover, based on meetings with the Joint Guam Program Office, TMA found that
timelines for moving personnel to Guam and completing construction projects may be
delayed because of environmental, political, and procurement issues. Based on meetings
with Naval Hospital Guam, TMA found there are currently 6 dental billets, projected to
increase by 10 billets for general dental officers and appropriate specialty dentists. In
addition, the hospital will be staffed to handle any emergency dental care for family


                                            8

members. The Deputy Director concluded that the Guam civilian dental infrastructure is
growing and will be able to meet the needs of the active duty family member population.

Our Response
We believe that the draft audit report fairly presents the extent of DoD planning for
providing dental care to the expected future population of ADFM in Guam. The only
DoD study assessing the availability of dental care for family members was a network
capacity model, prepared by the TDP contractor in May 2010—well after we began our
audit work and well after DoD had completed key planning documents, such as the
Medical Facilities Master Planning Study Update. We acknowledge that the number of
Guam dental providers has increased from the previous working assumption of 43—the
number provided to us by the TDP contractor and used in its May 2010 network capacity
model—and will change over time. Additionally, we recognize that applications for
licensure may continue to increase; however, we learned that part of this increase is due
to frequent turnover of missionary dentists on temporary assignments to Guam.
Although the number of licensed dentists may increase, the usual departure of missionary
dentists, combined with recent and planned retirements, could reduce the number of
practicing dentists. In fact, while performing audit work in April 2011 for phase II of the
audit, we learned that, 2 months after the TMA visit, the number of practicing dentists
had dropped from 52 to 49, with some dentists only practicing part time and others
nearing retirement. We also recognize that usage patterns of guest construction workers
may differ from those of military and family members. We agree that the Guam
relocation initiative timelines may continue to slip; however, TMA and the Navy need to
continue to ensure that sufficient dental care is available for the incoming ADFM
population. The addition of 10 general dental officers and specialty dentists at Naval
Hospital Guam will not affect routine care provided to ADFMs, as they are not eligible to
receive dental care in the DTF.

Recommendations, Management Comments, and Our
Response
1. We recommend that the Deputy Director, TRICARE Management Activity,
assess the capability of the TRICARE Dental Program to meet access requirements
for active duty family members in Guam given the projected increases in active duty
family member, contractor, DoD civilian, and indirect/induced populations. The
Deputy Director, TRICARE Management Activity, should communicate the results
to the Chief, Navy Bureau of Medicine and Surgery.

2. We recommend that the Chief, Navy Bureau of Medicine and Surgery, in
coordination with Deputy Director, TRICARE Management Activity, develop viable
plans that fully consider the impact contractor, DoD civilian, and indirect/induced
population increases in Guam will have on the availability of dental care for active
duty family members.




                                             9

TRICARE Management Activity Comments
The Deputy Director, TRICARE Management Activity, neither agreed nor disagreed. In
the TRICARE Management Activity comments on a draft of this report, the Deputy
Director stated that TRICARE Management Activity staff traveled to Guam in
February 2011 to assess dental planning and civilian dental infrastructure; the Deputy
Director concluded that the civilian dental infrastructure is growing and will be able to
meet the needs of the active duty family member population. Further, the Deputy
Director stated that TRICARE Management Activity will continue to work with the Navy
Bureau of Medicine and Surgery and the Joint Guam Program Office to ensure adequate
dental care is available to the incoming active duty family member population on Guam.

Navy Bureau of Medicine and Surgery Comments
The Chief, Navy Bureau of Medicine and Surgery, neither agreed nor disagreed,
deferring to TRICARE Management Activity as the oversight authority for active duty
family member dental care in CONUS service areas. The comments reiterate the
TRICARE Management Activity conclusion that the civilian dental network in Guam
will be adequate to deliver care to the future active duty family member population.

Our Response
The actions stated in TRICARE Management Activity’s comments are responsive. As
recommended, TRICARE staff’s February 2011 review of Guam dental resources
considered the impact that contractor, DoD civilian, and indirect/induced population
increases in Guam would have on the availability of dental care for active duty family
members. In addition, TRICARE’s commitment to coordination with the Navy Bureau
of Medicine and Surgery and the Joint Guam Program Office to ensure adequate dental
care is available in the future, satisfy the intent of the recommendations. No further
comments are necessary.




                                           10

Appendix A. Scope and Methodology
We conducted this performance audit from February 2010 through March 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our original audit objective was to evaluate the adequacy of medical facilities planning
related to Guam. Specifically, we were going to determine whether the planned health
care resources were sufficient to meet requirements as a result of the planned base closure
in Okinawa, Japan. However, based on issues identified early in the audit, we decided to
use a multi-phased audit approach. On June 29, 2010, we issued a clarification
memorandum stating that our audit objective for the first audit was to evaluate plans for
providing dental care to ADFMs in Guam (see Appendix B).

We interviewed JGPO, TMA, Naval Facilities Engineering Command, BUMED, and
Navy Medicine West officials responsible for planning facilities, staffing, and other
medical resources in Guam. To gather information on the current services and resources
available, we visited the U.S. Naval Hospital Okinawa, 3rd Dental Battalion, and
III Marine Expeditionary Force in Okinawa, Japan; and U.S. Naval Hospital Yokosuka,
Japan. We also contacted officials from the Apra Harbor Dental Clinic, Anderson Air
Force Base Clinic, U.S. Naval Hospital Guam, and Guam Department of Public Health
and Social Services.

For information on the planned move to Guam, we reviewed the Draft and Final
Environmental Impact Statements, Healthcare Requirements Analysis, Guam Integrated
Military Development Plan, Medical Facilities Master Planning Study Update, Draft
Guam Joint Military Master Plans, and other resource analyses performed by officials
visited. To gather information on dental care in the region, we reviewed the CFR, United
States Code, TDP contract, and the Network Capacity Model. We used the population
projections and plans to determine the expected population increases in Guam. When
considering future population increases, we excluded active duty personnel because they
typically do not obtain dental care from civilian providers.

In our analysis of Guam’s potential for designation as a HPSA for dental care, we
assumed that one dentist was equal to one full-time equivalent (FTE). HPSA regulations
contain formulas for determining FTEs that consider age of the provider, number of
auxiliary staff employed by the dentist, and number of hours worked; the FTE for a
full-time dentist can range from 0.5 to 1.5. Collecting the data necessary to determine the
number of FTE dentists was outside the scope of our audit. Using the actual number of
FTEs in our calculations may have shown that Guam is more or less likely to qualify for
HPSA designation than the scenario presented in this report.



                                            11

Use of Computer-Processed Data
We did not rely on computer-processed data in developing our findings, conclusions, or
recommendations.

Prior Coverage
No prior coverage has been conducted on the adequacy of dental care plans for ADFMs
in Guam during the last 5 years.




                                          12

Appendix B. Memorandum to Clarify Audit
Objectives




                    13

Tricare Management Activity Comments





                  Click to add JPEG file




                                 14
Click to add JPEG file




               15
Click to add JPEG file




               16
Bureau of Medicine and Surgery Comments





                  Click to add JPEG file




                                 17
